  "q-AMTRAK
      NATIONAL RAILROAD
      PASSENGEI~ CORPORATION
                                          Office of Inspector General


Memorandum
To:            DJ Stadtler, Vice President, Operations
               Eleanor Acheson, Vice President, General Counsel
               Gordon Hutchinson, Acting Chief Financial Officer
               Jeff Martin, Chief Logistics Officer
               A. Barry Melnkovic, Chief Human Capital Officer
               Emmett Fremaux, Vice President, Marketing
               Dee ~aiell' A~tin,Chief Information Officer
            ~            ;J.?0~
From:          David R. Warren, Assistant Inspector General, Aud~ 7/' ~ . J
               Adnenne RISh, AssIstant Inspector General, Invei~~ti'~'-'l ~

Date:          June 14, 2012

Subject:       Data Analytics - Engagement Memo

This is to inform you that our office is initiating an audit and investigation project to
assess the effectiveness of controls in Amtrak's various business processes such as
Purchase to Payment, Materials Management, Payroll, Health Care, and Claims. This
project will rely heavily on data analysis software tools. Analysis of organizational data
u sing specialized software is increasingly becoming the preferred way of conducting
audits and proactive investigations in the IG community.

The objectives of this project are to (1) assess the effectiveness of internal controls in
company's business processes, (2) identify opportunities to control risks, and improve
efficiency and effectiveness of business operations, and (3) prevent, detect, and deter
instances of fraud, waste and abuse in the company.

We plan to accomplish this work on an incremental basis by focusing on a small subset
of critical business processes at a time. As part of this effort, we plan to use the ACL
(Audit Command Language) data analytics software by mapping it to critical business
data systems such as SAP, Ariba, Maximo and Spear. We have been using the ACL

                       10 G Street, NE, 3W- 300, Washington, D.C. 20002
                         202.906.4600 / Fraud Hotline 800.468.5469
software in the Amtrak environment for well over 10 years now. However, conversion
to SAM requires us to remap the data elements.

We have recently engaged ACL contractors to assist us in this project and help us
enhance our data analytics capability for the future. We plan to use cross-functional
teams to perform our audit and proactive investigative work, and our initial efforts will
focus on Purchase to Payment and Claims processes. We are requesting the assistance
of your staff to help us map relevant business data and develop various analytic tests
without disrupting normal business operations. During our work, we will request
documentation and interview key staff members in your departments to understand
business processes, key controls, and risk areas. We will require support from your staff
in understanding data, developing specifications for analytics, and validating test
results. We will try to minimize the impact by coordinating our work with relevant staff
members in advance.

We will keep you advised of the status of our work and any material changes' in our
project objectives. To initiate this project, we will schedule an entrance conference
through Amtrak's audit liaison.

Shortly after the conclusion of our audit analysis work for each focus area, our office
will issue draft reports containing findings and recommendations. However, during the
course of our work, we will communicate to management any issues that require
immediate attention and our preliminary findings. To the extent possible, the
investigations office will also advise you of any important results and related
recommendations stemming from their proactive investigative work.

Data analytics provides a strong tool for both audits and investigations, and
management analysis. As we complete our analysis of each business process, we
anticipate that management may also want to consider adopting this analytical
capability to monitor its controls.

Vijay Chheda and LaVan Griffith are the managers for this project from audits and
investigations respectively. They will be primarily supported by Ben Davani, Asha
Sriramulu, and Ashish Tendulkar from audits as well as Jerry Bullock and Ken Privette
from investigations. If you have any questions, you can contact Dave Warren at (202)



                       10 G Street, NE, 3W-300, Washington, D.C. 20002
                         202.906.4600 / Fraud Hotline 800.468.5469
906-4742 or by email at David.Warren@amtrakoig.gov, or Vipul Doshi at (202) 906-4619
or by email at Vipul.Doshi@amtrakoig.gov.


cc:   Jessica Scritchfield, Senior Director, Internal Controls/Audit
      William Herrmann, Managing Deputy General Counsel




                     10 G Street, NE, 3W-300, Washington, D.C. 20002
                        202.906.4600 / Fraud Hotline 800.468.5469
